  CONGRESSIONAL RESPONSE
         REPORT

 Status of Corrective Actions Taken in
Response to Recommendations in Fiscal
  Years 1997 Through 2000 Payment
     Accuracy Task Force Reports
              A-13-01-21046




              October 2002
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                                        Background
During the early 1990s, the Social Security Administration (SSA) reported a decline in
the accuracy of certain Supplemental Security Income (SSI) benefit payments.1 To
improve the accuracy of SSI and Old-Age and Survivors Insurance (OASI) program
benefit payments, SSA created the Payment Accuracy Task Force (PATF) in 1996. The
PATF was a cooperative effort between SSA and the Office of the Inspector General. A
10-member Associate Commissioner-level Steering Committee guided the PATF’s
work.

PATF Initiative

Each year, the Steering Committee designated a “payment error category” for the PATF
review. The PATF defined a payment error category as a broad grouping of specific
deficiencies.2 For example, the “SSI earned income” payment error category included
wages and self-employment income deficiencies. These deficiencies primarily result
from a claimant’s failure to report information affecting their entitlement or payment
amount.

To select the payment error categories for PATF review, the Steering Committee used
two reports issued by SSA’s Office of Quality Assurance and Performance Assessment.
The Steering Committee primarily used the “Index of Dollar Accuracy” (IDA) reports,3
which focused on a review of nonmedical factors of entitlement and/or eligibility for
OASI initial claims awards and disallowances, as well as a review of SSI initial claims
and field office redeterminations.4 In addition, the Steering Committee used the Office
of Quality Assurance and Performance Assessment’s Stewardship reports.5 These
reports provide information concerning the overall accuracy of benefit payments made
to individuals “currently on the rolls.”
1
 The reported IDA accuracy rate for SSI declined from 96.8 percent in FY 1990 to 94.8 percent in
FY 1995.
2
 A deficiency is an action or failure to act on the part of SSA or the recipient, which results in an incorrect
eligibility determination, incorrect payment amount or material change in the record.
3
 The Steering Committee used the following reports to select the four payment error categories: Fiscal
Year (FY) 1995 through 1997 Index of Dollar Accuracy (IDA) Final Reports—INFORMATION and the
Fiscal Year (FY) 1998 Title II Payment Accuracy (Stewardship) Report—INFORMATION.
4
  The IDA for SSI payments expresses the combined accuracy of current, retroactive and estimated long-
term payments resulting from initial claims and field office redeterminations. IDA for OASI program
payments expresses the combined accuracy of current, retroactive and estimated long term payments
resulting from a review of nonmedical factors of entitlement/eligibility for initial claims awards and
disallowances. Beginning in FY 1998, reviews of nonmedical aspects of Disability awards were added to
the IDA and Stewardship reviews.
5
 The Stewardship reports provide a basic measure the Agency reports to Congress and other monitoring
authorities on the accuracy of OASI and SSI payments and the nonmedical aspects of Disability claims.
Payment accuracy rates are reported for overpayments and underpayments.

Status of Corrective Actions Taken in Response to Recommendations in Fiscal Years 1997-                       1
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
From Fiscal Years (FY) 1997 through 2000, the PATF reviewed four payment error
categories: OASI earnings records, SSI earned income, SSI unearned income, and
OASI relationship and dependency.

PATF Reports

The PATF’s initial report, Payment Accuracy Task Force: Earnings Record Issue Team,
was issued on September 22, 1997. The report focused on earnings records, which
historically accounted for the largest dollar amount of payment errors in the OASI
program. Of the 18 reported recommendations, 13 addressed military service errors.

The second PATF report, Payment Accuracy Task Force: SSI Earned Income Issue
Team, was issued on September 29, 1998. The report focused on SSI payment errors
related to earned income. The Steering Committee’s decision to focus on SSI was
prompted, in part, by the General Accounting Office’s 1997 designation of SSI as a
high-risk program.

The payment error category of “earned income” was selected because it had historically
accounted for one of the largest dollar amounts of payment errors in the SSI program.
Claimants failing to report information affecting eligibility for, or the amount of, benefit
payments was the major cause of earned income errors. Seven of the reports’
12 recommendations suggested ways SSA could address nonreporting.

On September 29, 1999, the PATF issued its third report, Payment Accuracy Task
Force Report: Supplemental Security Income Unearned Income. As with the 1998
PATF report, the major cause of payment errors was related to claimants failing to
report information affecting eligibility for, or amount of, benefit payments. Five of the
eight recommendations focused on improvements in communicating reporting
responsibilities to individuals receiving benefit payments or improvements to information
systems to prompt field office staff to solicit and document reporting-related information.

On September 29, 2000, the PATF issued its last report, Payment Accuracy Task Force
Report: Title II Relationship and Dependency. This report addressed OASI relationship
and dependency payment errors.6 From FY 1995 through 1999, the largest amount of
OASI overpayment dollars, as reported in the SSA’s FY 1998 Stewardship report, were
attributable to relationship and dependency payment errors. The report’s nine
recommendations addressed payment errors involving child beneficiaries.




6
  OASI relationship and dependency payment category encompasses a broad range of entitlement issues
including, but not limited to, issues associated with out-of-wedlock children, stepchildren, legally adopted
children, student beneficiaries, common-law and deemed marriages and beneficiary divorce.

Status of Corrective Actions Taken in Response to Recommendations in Fiscal Years 1997-                    2
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                                                    Results of Review
The Agency’s self-reported implementation status of corrective actions taken in
response to PATF report recommendations is summarized below, but the Agency did
not provide information regarding the impact of its corrective actions. SSA provided the
detailed status information contained in the attached Appendices in response to our
inquiry. Accordingly, we did not audit or validate the information provided by the
Agency. We attempted to determine whether, after the PATF reports were issued,
overall benefit payment accuracy improved. We were unable to make this
determination.

Status of Corrective Actions the Agency has Taken in Response to
PATF Recommendations
SSA has taken action to implement most of the PATF report recommendations. On
May 30, 2001, we requested the Acting Commissioner of Social Security to provide up-
to-date descriptions of current and/or planned efforts for implementing and measuring
the impact of the FY’s 1997 through 2000 PATF report recommendations. On
July 20, 2001, the Acting Commissioner provided information on the implementation
status of corrective actions taken for recommendations accepted by the Agency
(Appendix A).

Of the 47 recommendations made in the 4 reports, the Agency concurred with all but
4 recommendations. Chart 1 provides the status of corrective actions taken in response
to PATF recommendations accepted by the Agency. We subsequently obtained status
updates in April 2002 (Appendix B).




Status of Corrective Actions Taken in Response to Recommendations in Fiscal Years 1997-   3
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
         CHART 1: STATUS OF AGENCY’S CORRECTIVE ACTIONS




The 43 recommendations the Agency concurred with focused primarily on military wage
issues; nonreporting of information/income affecting entitlement or monthly benefit
amounts; nonreporting of unearned income affecting monthly benefits; and entitlement
issues for child beneficiaries. Significant recommendations for each of these categories
are shown below.

Military wages

·   Generate a systems alert when the claimant alleges no military service and the
    system can identify possible military service.
·   Automate the feedback procedure used to prove alleged military service from 1957
    to 1967.
·   Perform a study of Earnings Modernization 2.8 earnings adjustments processed by
    field offices.7

Nonreporting of information/earned income affecting entitlement or monthly
benefit

·   Reduce the maximum redetermination period to 2 years.
·   Print wage estimates and detailed reporting instructions on the claims receipt form.
·   Revise Modernized Supplemental Security Income Claims System to capture self-
    employment income for the current taxable year.

7
  Earnings Modernization 2.8 is a systems release/update that permits field office personnel to
electronically correct an individual’s earnings record. Corrections are processed for and updated to an
individual’s earnings record overnight.

Status of Corrective Actions Taken in Response to Recommendations in Fiscal Years 1997-                   4
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
Nonreporting of unearned income affecting monthly benefits

·   Discuss with the Department of Health and Human Services’ Office of Child Support
    Enforcement the sufficiency of existing laws to permit on-line access to State child
    support enforcement agency records.

Entitlement issues for child beneficiaries

·   Develop supplemental tools to help with one-half support computation 8 (for
    example, an interactive computation screen supported by the Interactive
    Computation Facility, a worksheet for manual computation, and/or a desk guide).
·   Distribute a program circular or other forms of communication to remind field offices
    and program service centers that legal precedent opinions on State and District of
    Columbia law are available in operating procedures stored on CD-ROM.

SSA Did Not Provide Impact of Corrective Actions
In our request to the Acting Commissioner, we asked that the Agency provide
information on the impact of corrective actions taken in response to the PATF
recommendations. We also asked that, if impact had not been assessed, information
be provided about SSA’s plans and related time frames for assessing the impact of the
actions taken. SSA did not provide us information about the impact corrective actions
had on benefit payment accuracy or its operations and policies. Specifically, the
Agency advised us that “…Current measurement instruments do not provide data
specific enough to measure the impacts of these provisions. After carefully reviewing
the recommendations, we found that these items did not warrant the establishment of
discrete measurement mechanisms” (Appendix A, page A-1).

We discussed with senior Agency officials the lack of measurement mechanisms for
assessing impact of corrective actions taken by SSA. The officials related the difficulty
in determining the impact of corrective actions taken in response to PATF report
recommendations. Concerns were articulated about the narrow focus of the
recommendations, which made measuring impact difficult to identify and isolate. SSA
believes that the creation of these mechanisms would not be cost-beneficial. Further,
Agency officials indicated the following:
        That there is serious doubt that such measurement mechanisms could be
        developed to measure the impact of narrowly focused and targeted
        recommendations. This is true because so many varied factors enter into
        the level of payment accuracy achieved in the OASDI and SSI programs in a
        given fiscal year or point in time. One would have to be able to identify all
        those factors and isolate their individual impact on payment accuracy,
        starting with the base time period and comparing this to the point at which
        you wish to measure the impact of the individual recommendations. The

8
 Program Operations Manual System section RS 01301.010 defines one-half support as regular
contributions made by the Social Security numberholder in cash, kind, or services to the claimant of which
the amount of such contributions equals or exceeds one-half of the claimant’s income from all sources.

Status of Corrective Actions Taken in Response to Recommendations in Fiscal Years 1997-                 5
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
        problem is that the level of payment accuracy achieved at any given point in
        time is the result of a combination of many considerations that are often
        dynamic in nature and some of which have opposite impacts on accuracy.
        These considerations include such factors as: staffing levels in comparison
        to work processed, knowledge and experience of staff, competing workload
        pressures in the day-to-day work environment, complexity of work,
        new/changes in policies and procedures, level of supervisory staff available
        for spot checks and review of work, the amount of quality feedback provided
        to front line workers, to name a few.


Office of the Inspector General Assessment of Impact
We could not assess the impact of the actions the Agency has taken in response to the
PATF report recommendations. Since the Agency does not have instruments to
measure the impact of actions taken, we cannot attribute changes in the payment
accuracy rates to the actions taken in response to the report recommendations.
Consequently, we attempted to determine whether payment accuracy changed after the
issuance of the PATF reports.

We reviewed payment accuracy information reported by SSA in its IDA and
Stewardship reports.9 For the PATF 1997 report concerning OASI payments, we
reviewed the FY 1999 and 2000 IDA reports and the FY 1999 and 2000 Stewardship
reports.10 In addition, for the 1998 PATF report about SSI-related payments, we
reviewed the FY 2000 Stewardship report for changes in SSI over- and underpayment
accuracy rates.11 Reported payment accuracy rates have not changed significantly.12
The accuracy rates were as follows.




9
  Based on Office of Management and Budget guidance for addressing audit recommendations, we
limited our review to payment accuracy rates applicable to time periods occurring at least 1 year after the
PATF reports were issued. OMB, Circular Number A-123, Management of Federal Information
Resources, June 1995.
10
  Fiscal Years (FY) 1998, 1999, and 2000 Title II Index of Dollar Accuracy (IDA) Reports—
INFORMATION and Fiscal Years (FY) 1999 and 2000 Title II Payment Accuracy (Stewardship) Reports—
INFORMATION.
11
  Fiscal Year (FY) 2000 Supplemental Security Income Payment Accuracy (Stewardship) Report—
INFORMATION.
12
  The assessment of payment accuracy was based on an examination of data reported by SSA in the
IDA and Stewardship reports. We did not test the validity of these data.


Status of Corrective Actions Taken in Response to Recommendations in Fiscal Years 1997-                   6
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
Table 1. Accuracy Rates
                                             IDA Accuracy Rates

     PATF Report Issuance and                   Rate at          FY 1999           FY 2000          FY 2001
             Subject                            Report            Rate              Rate             Rate13
                                               Issuance

September 1997 OASI                             99.80%           99.60%            99.90%               N/A
September 1998 SSI                              93.90%            N/A*             94.00%               N/A

Table 2. Stewardship Accuracy Rates14

 PATF Report Rate at Report                          FY 1999                 FY 2000                  FY 2001
 Issuance and   Issuance                              Rates                   Rates                    Rates
    Subject
               Payments                           Payments                Payments                 Payments
              Under Over                         Under Over              Under Over               Under Over

September
1997 OASI             99.90% 99.90% 99.90% 99.80% 99.89% 99.96%                                   N/A          N/A
September
1998 SSI              98.80% 93.50%              N/A*         N/A*      98.60% 93.60%             N/A          N/A

* Based on Office of Management and Budget guidance, we did not consider the accuracy rates for this period applicable
since a sufficient period of time had not elapsed since the issuance of the respective reports. See Footnote 9.


We could not determine whether payment rates changed after the PATF reports were
issued. For the 1997 PATF report, we would need at least 3 years of the IDA and
Stewardship reports to conduct a trend analysis. The IDA report for FY 2001 was not
available for this analysis. In addition, sufficient time has not elapsed to perform an
analysis for the September 1998 through 2000 PATF reports.

Changes in Deficiency Dollars Relative to the Specific Payment Error Categories

We also reviewed IDA and Stewardship information to determine whether there were
changes in the amounts of “deficiency dollars”15 reported for each of the specific


13
  IDA reports provide information on SSA program payment accuracy rates. As of August 6, 2002, the
FY 2001 IDA and Stewardship reports were not available.
14
     Stewardship reports provide information concerning under- and overpayments for SSA programs.
15
  Deficiency dollars data represent the dollar value resulting from incorrect decisions made that are
material to the fact or date of eligibility or payment amount, and can be expressed as an over or
underpayment. Deficiency dollar data are based on a sample of cases that are “redeveloped.”
Redeveloped cases denote the use of procedures by Office of Quality Assurance and Performance

Status of Corrective Actions Taken in Response to Recommendations in Fiscal Years 1997-                                  7
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
payment error categories reviewed by the PATF. The manner in which the deficiency
dollar information was reported within the IDA and Stewardship reports did not enable
us to compare information for FYs 1997 through 2000. Subsequently, we requested
and received information from the Office of Quality Assurance and Performance
Assessment that enabled us to group the deficiency dollar data into the four payment
error categories evaluated by the PATF. However, similar to our efforts for reviewing
overall payment accuracy, sufficient time had not elapsed to allow us to determine if
actions taken in response to the reports impacted deficiency dollars.




Assessment staff to review a beneficiary or recipient case to ensure appropriate eligibility and correct
payment amounts.

Status of Corrective Actions Taken in Response to Recommendations in Fiscal Years 1997-                    8
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                                                                       Conclusions
SSA indicated it concurred with 43 of 47 recommendations in the PATF reports. Of the
43 recommendations, the Agency reported it had taken corrective action in response to
25 recommendations, 11 recommendations are being implemented, and the remaining
7 recommendations are being evaluated to assess the level of priority that is warranted.
Although SSA did provide the status of its corrective actions, the Agency could not
provide information regarding the impact of its corrective actions. SSA’s current
measurement instruments do not provide data specific enough to measure the impact of
the corrective actions it has taken related to payment accuracy recommendations.
Without proper measurement mechanisms, SSA cannot determine the impact of
corrective actions it has taken in response to PATF report recommendations and the
resulting effect those actions have had on overall payment accuracy rates. SSA
officials indicated that it would not be cost-beneficial to develop discrete measurement
mechanisms for narrowly focused and targeted recommendations solely to measure
impact.

We could not determine whether overall payment accuracy improved after issuance of
the PATF reports. This was due, in part, because enough time had not elapsed since
the issuance of the PATF reports to allow for corrective action on all report
recommendations. In addition, limited information was available at the time of our
review.16




16
  To determine if changes in payment accuracy had occurred subsequent to the Agency’s
implementation of corrective actions in response to report recommendations, we require IDA and
Stewardship reports for FY 2001-2004.




Status of Corrective Actions Taken in Response to Recommendations in Fiscal Years 1997-          9
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                                      Appendices
  Appendix A – July 20, 2001 Memorandum from the Acting
               Commissioner of Social Security and Attachment
               Payment Accuracy Task Force 1997-2000 Reports SSA
               Status Update)

  Appendix B – Update of the Status of Corrective Actions on Certain
               Payment Accuracy Task Force’s Recommendations

  Appendix C – Acronyms

  Appendix D – OIG Contacts and Staff Acknowledgments




Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                                                                         Appendix A

July 20, 2001 Memorandum from the Acting
Commissioner of Social Security




Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997-   A-1
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                  PAYMENT ACCURACY TASK FORCE
                       1997 – 2000 REPORTS
                                  SSA Status Update



Earnings Record Issue Team                                              September 1997


Of the 18 recommendations, 12 have been implemented; 4 are being implemented; and
2 are pending SSA’s prioritization within its Systems' 5-year plan.

Recommendation 1: Modify policy to require review of pre-1978 military wages.

                     Current policy requires claims representatives (CR) to review a
                     claimant’s earnings records for possible earnings inaccuracies for
                     the years 1978 to 2001. It is not a requirement for years before
                     1978. As a result, pre-1978 military service wages needed for
                     benefit computation were frequently overlooked.

                     Status (Implemented): The Wage Development chapter of SSA’s
                     operating procedures is being rewritten and will include a review of
                     pre-1978 military wages. The expected completion date is
                     November 2001. In June 1999, SSA implemented military service
                     on-line help screens to provide guidance to claims representatives
                     in obtaining military service evidence. The screens included
                     guidance regarding review of pre-1978 military wages.

                     Responsible SSA Component: DCDISP

Recommendation 2: Improve the presentation quality of the military service wage
                tables.

                     CRs refer to military wage tables in their operating procedures to
                     obtain basic pay scales for years of service for the various military
                     ranks. This information is used in benefit computation. The CRs
                     found the tables difficult to use, as parts of the table were
                     completely illegible.

                     Status (Implemented): In September 1997, the presentation
                     quality of the military service wage tables was improved.

                     Responsible SSA Component: DCDISP

Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997-   A-2
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
Recommendation 3: Print the claimant’s statement regarding periods of military
                service on the application.

                     Claimants frequently disagree with the military service dates used
                     in their benefit computations. To ensure the correct information is
                     used in the computation, the claimant’s periods of military service
                     need to be generated in a printed application to provide them with
                     opportunity to review the information.

                     Status (Implemented): In June 1999, SSA’s operating procedures
                     were revised to include this information and the Modernized Claims
                     System (MCS) was modified to document the claimant’s statement
                     regarding periods of military service on the application. The MCS is
                     an automated system used to input Disability and Retirement
                     Survivors Insurance claims related data.

                     Responsible SSA Component: DCO

Recommendation 4: Generate a reminder on the development worksheet to
                prompt claims representatives to initiate military service
                development.

                     CRs indicated there are often so many development issues to
                     consider when processing a claim, it is possible to overlook
                     development of military service. Many CRs used the MCS
                     development worksheet to ensure claims are developed and
                     documented. However, military service evidence is not shown on
                     the worksheet.

                     Status (Implemented): As part of the MCS update in September
                     1998, a reminder is now generated for CRs to initiate military
                     service development.

                     Responsible SSA Component: DCO

Recommendation 5: Generate a diary when military service is alleged and the
                claim is being adjudicated.

                     CRs can award benefits so a claimant can receive partial benefits
                     until military service evidence is received. If a diary is not
                     established to control receipt of the evidence, the claimant may not
                     receive the appropriate military service credit.

                     Status (Implemented): The generation of a diary was included in
                     the November 2000 MCS update. When military service evidence


Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997-   A-3
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     is not readily available, CRs can award partial benefits until
                     evidence of military service is received. An automated systems
                     diary has been established to remind the representatives to
                     develop military service evidence.

                     Responsible SSA Component: DCO

Recommendation 6: Correct “scouting” and “feedback” terminology in operating
                procedures.

                     “Scouting” is the process previously used by CRs to research an
                     allegation of incorrect, missing or under/overstated earnings where
                     an employer is known. With the advent of the Earnings
                     Modernization System (EMS) Release 2.8, the process became
                     automated and is now referred to as “feedback.”

                     Status (Implemented): The operating procedures were revised in
                     September 1998 to change the term “scouting” to “feedback.”

                     Responsible SSA Component: DCO/DCDISP

Recommendation 7: Automate the feedback procedure used to prove alleged
                military service during 1957-1967.

                     For CRs to obtain feedback information, they must exit the on-line
                     claims taking process and enter into the EMS. By incorporating the
                     feedback procedure into the claims taking process, CRs have the
                     discretion to obtain feedback while discussing military service
                     evidence with the claimant.

                     Status (Pending SSA’s Systems' 5-year Prioritization): The
                     automated feedback procedure used to prove military service
                     during 1957 to 1967 is scheduled for implementation as part of the
                     MCS enhancement scheduled for 2002.

                     Responsible SSA Component: DCS

                     Update on Status: No Change

Recommendation 8: Educate claims representatives on specific military service
                procedures.

                     CRs indicated they found military policies and procedures difficult to
                     interpret and follow. Additional training is needed on the proper use
                     of military service codes, when and how to use military service



Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997-   A-4
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     tables, when it is appropriate to request feedback, and how
                     feedback differs from the “scouting” (now “feedback”) process.

                     Status (Implemented): In March and April 2000, an interactive
                     video training (IVT) focused entirely on military service procedures.

                     Responsible SSA Component: DCDISP

Recommendation 9: Include “County Courthouses” as another potential source
                for military service proofs.

                     Several CRs indicated they found it more expedient to obtain
                     military service records from a courthouse than to wait for evidence
                     requested from a branch of the military service. The local
                     courthouse maintains the original copies of the veterans’ discharge
                     papers, which is the preferred evidence for proof of military service.

                     Status (Implemented): In June 1998, SSA operating procedures
                     were revised to emphasize “County Courthouses” as another
                     potential source for obtaining proof of military service.

                     Responsible SSA Component: DCDISP

Recommendation 10: Implement an on-line edit to prevent the incorrect use of
                the proof code “precluded” used for post-1956 military
                service.

                     Post-1956 military service can be used in calculating Social
                     Security benefits unless the Railroad Retirement Board has given
                     credit for the same service. The edit is to prevent CRs from giving
                     the claimant credit for post-1956 military service until they check
                     that the Railroad Retirement Board has not given the claimant
                     credit.

                     Status (Implemented): As part of the June 1999 MCS update, an
                     edit was incorporated into the screen for Military Service to prevent
                     incorrect use of the proof code “precluded” for post-1956 military
                     service.

                     Responsible SSA Component: DCO

Recommendation 11: Revise the military service question on MCS to solicit
                additional information regarding active reserve and National
                Guard service.




Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997-   A-5
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     CRs were not identifying all periods of military service. They were
                     not specifically asking the claimants about active reserve or
                     National Guard service.

                     Status (Implemented): Language is being incorporated in the
                     latest MCS update to solicit information regarding active reserve
                     and National Guard service.

                     Responsible SSA Component: DCO

Recommendation 12: Generate a systems alert when the claimant alleges no
                military service, and the system can identify possible military
                service.

                     For survivors’ claims, the claimant sometimes does not or cannot
                     remember the Social Security numberholder served in the military.
                     SSA has a data base of military service information obtained when
                     a prior claim was filed. An alert was needed in MCS to notify CRs
                     of the existence of military service evidence.

                     Status (Pending SSA’s Systems' 5-year Prioritization): SSA is
                     evaluating a front-end systems alert to advise CRs of possible
                     military service.

                     Responsible SSA Component: DCO

                     Update on Status: No Change

Recommendation 13: Establish an intercomponent team to improve military
                service procedures.

                     CRs were confused by SSA’s policies and procedures and found
                     them difficult to interpret and follow. Clarification was needed.

                     Status (Implementation in Progress): A team was formed and
                     prepared draft military operating procedures, which have been
                     released for intercomponent review. Expected release date of the
                     final procedures is June 2001.

                     Responsible SSA Component: DCDISP

                     Update on Status: Due to other priority work, this
                     recommendation has not been completed. We expect that the
                     revised operating procedures will be completed and released in the
                     summer of 2002.



Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997-   A-6
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
Recommendation 14: Clarify the policy pertaining to lag earnings.

                     Lag earnings are unposted earnings that were paid during the
                     current year and the year preceding the claimant’s date of filing for
                     benefits. SSA’s operating procedures did not indicate what is
                     accepted evidence of lag earnings.

                     Status (Implementation in Progress): The policy on lag earnings
                     is being revised as part of the military service procedure rewrite
                     mentioned in Recommendation 1 Status.

                     Responsible SSA Component: DCDISP/DCO

                     Update on Status: Expected completion date of the chapter is
                     November 2001.

Recommendation 15: Emphasize the importance of checking and resolving
                earnings discrepancies on the Personal Earnings and Benefit
                Estimate Statement (PEBES).

                     PEBES provides the Agency an opportunity to heighten public
                     awareness of the importance of accurate earnings information. The
                     PEBES statement does not clearly encourage the public to take
                     action to correct earnings information. (Note: PEBES was recently
                     renamed “Social Security Statement.”)

                     Status (Implemented): Language was included in the Rights and
                     Responsibilities booklet, the Social Security Statement, and
                     monthly information packets. They stress the importance of
                     individuals checking and resolving earnings discrepancies on the
                     Social Security Statements to ensure their earnings records are
                     correct. Changes to the language of the Statement to clarify that
                     individuals should report incorrect earnings only for years prior to
                     the current year (since current-year earnings would not yet appear
                     on the Statement) made a dramatic difference in the number of
                     calls received by Social Security offices.

                     Responsible SSA Component: DCCOM

Recommendation 16: Support current efforts to develop a more comprehensive
                earnings query.

                     CRs generate an on-line earning query(ies) to verify earnings
                     during claims interviews. The query provides the CR with total
                     wages for the year, but it does not provide CRs with earnings alerts
                     or quarters of coverage. A comprehensive earnings query


Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997-   A-7
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     generated at the beginning of a claims interview would provide the
                     CR and claimant information that could facilitate identifying and
                     correcting earnings records.

                     Status (Implemented): In September 2000, SSA completed work
                     on the Informational/Certified Earnings Record (ICER), which
                     provides more comprehensive earnings information. ICER
                     facilitates identification and correction of correcting earnings
                     discrepancies.

                     Responsible SSA Component: DCO

Recommendation 17: Develop a system to provide meaningful feedback to
                employees on payment accuracy.

                     CRs seldom receive information regarding the accuracy of their
                     work. The Agency annually conducts an Index of Dollar Accuracy
                     (IDA) study to provide Agency management with payment accuracy
                     data at a national level rather than at a field office level.

                     Status (Implementation in Progress): IDA is being restructured to
                     provide more current, useable feedback to field offices and program
                     service centers on the payment accuracy of recent claims (title II
                     and title XVI) and redetermination (title XVI) transactions. The
                     previous methodology did not allow identification of trends relating
                     to the types of payment errors being made by regions or for the
                     regions to share this information with their field offices.

                     Responsible SSA Component: DCFAM

                     Update on Status: An agency decision on the options being
                     considered to modify IDA is expected in the summer 2001.

Recommendation 18: Perform a study of Earnings Modernization 2.8 earnings
                adjustments processed by field offices.

                     The EMS allows field office personnel to electronically correct an
                     individual’s earnings record. However, many CRs were having
                     difficulty completing earnings corrections because the system
                     design operated differently from the claims input systems they were
                     using.

                     Status (Implementation in Progress): This item has been
                     included in the “Earnings Process Improvement Key Initiative” as
                     part of SSA’s Strategic Plan. The study is in the planning process.



Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997-   A-8
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     Responsible SSA Component: DCO

                     Update on Status: This recommendation is in the planning
                     process. Analysis is still being performed. The due date is to be
                     determined.




Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997-   A-9
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
SSI Earned Income Issue Team                                        September 1998


Of the 12 report recommendations, 7 have been implemented; 2 are pending SSA’s
prioritization within its Systems' 5-year plan; and 3 did not have SSA concurrence.

Recommendation 1: Perform a study to determine if the State Wage Match could
                be expanded to confirm earned income information.

                     The Office of Child Support Enforcement (OCSE) data base
                     provides quarterly wage information from State data that SSA can
                     match against its wage data to detect differences in reported wage
                     amounts. The new wage match could be expanded for wages
                     detected in excess of a $250 difference to (1) encourage self-
                     reporting by notifying individuals that wages on the OCSE data
                     base differ from those in SSA’s records, (2) revise wage estimates
                     upwards for those individuals who do not respond to a notification
                     of excess wages, and (3) verify wages within a certain tolerance
                     level to eliminate unnecessary field office work.

                     Status (SSA Did Not Concur): SSA has expressed concerns over
                     this recommendation. SSA currently matches State wage quarterly
                     information with earned income amounts on SSA’s Supplemental
                     Security Income (SSI) record to identify unreported earned income.
                     The accuracy of the information provided by the States varies, and
                     SSA believes this would not be a good source to confirm earned
                     income.

                     Responsible SSA Component: DCFAM

                     Update on Status: No change

Recommendation 2: Reduce the maximum redetermination period to 2 years.

                     Redeterminations are conducted on selected cases each year to
                     ensure SSI recipients are eligible for, and receiving, correct SSI
                     payments. SSA uses a profile system to score each record based
                     on the likelihood of an error. Cases may be selected every year or
                     go as long as 6 years without a review. CRs indicated that 6 years
                     is too long to expect claimants to maintain records and provide
                     accurate information. In addition, SSA’s policy prevents CRs from
                     adjusting payments or collecting overpayments that occur beyond a
                     2-year period.

Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997-   A-10
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     Status (SSA Did Not Concur): Although the Agency did not
                     concur, its Office of Quality Assurance is considering incorporating
                     this as a potential study in its Fiscal Year 2002 workplan.

                     Responsible SSA Component: DCFAM

                     Update on Status: No Change

Recommendation 3: Evaluate the use and enforcement of penalties and
                determine whether the penalty assessment process should be
                simplified.

                     SSI recipients can be assessed penalties when they fail to report
                     timely changes affecting their eligibility or payment amount. Most
                     CRs had never assessed a penalty and almost all stated that, while
                     it is the Agency’s policy to assess penalties, it is not encouraged.
                     The penalty assessment process is costly for CRs to perform and
                     takes time away from processing claims.

                     Status (SSA Did Not Concur): SSA commented that the Foster
                     Care Act addresses this recommendation. IVT was conducted in
                     October 2000 on the Foster Care Act Provision, and language
                     regarding the provision has been included in SSA’s operating
                     procedures. The provision allows for SSA to levy a penalty against
                     the individual who makes a false or misleading statement that
                     would impact determining title II or title XVI eligibility or benefit
                     amounts. The penalty is nonpayment of benefits for 6 months for
                     the first occurrence, 12 months for the second, and 24 months for
                     subsequent occurrences.

                     Responsible SSA Component: OGC

                     Update on Status: The Administrative Sanctions process was
                     successfully implemented nationwide in October 2000. The NY RO
                     developed a database to provide management information.
                     Currently there are 79 cases in the database. Of those cases, the
                     sixty-day notice to impose a sanction has been sent to the claimant
                     in 19 cases. Two of these cases are in suspension and the
                     remainder are still in the appeals period. Of the remainder of the
                     cases, some are pending in OIG and some have been returned to
                     the FO and are awaiting the preparation of the 60-day notice. In six
                     cases, a decision was made not to impose a sanction. The Office
                     of Program Benefits recently circulated within SSA for component
                     signoff draft final rules that would adopt without change interim final



Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997-   A-11
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     rules, which were published in the Federal Register July 10, 2000.
                     Those final rules are expected to be published this summer.

Recommendation 4: Include procedures in the Teleservice Center (TSC)
                Operating Guide for recording SSI work reports for aged
                individuals and deemors.

                     The TSC Operating Guide instructs staff on how to handle different
                     inquiries via SSA’s 800-number. It includes detailed instructions on
                     taking work reports for disabled workers, but it does not address
                     handling reports from aged individuals or deemors. (Deemors are
                     individuals who agree to support an alien as a condition of the
                     alien’s admission to the United States.)

                     Status (Implemented): Procedures for recording work reports for
                     aged individuals and deemors have been included in the operating
                     procedures and in the automated support program used by TSCs.

                     Responsible SSA Component: DCO


Recommendation 5: Issue a Spotlight on wage and self-reporting requirements.

                     Reporting instructions were scattered among various publications
                     and did not indicate the types of evidence individuals need to
                     provide SSA. To ensure that SSI recipients and representative
                     payees are aware of and understand reporting requirements, SSA
                     needs to provide clear instructions. SSA uses Spotlights as
                     handouts that contain general information to help SSA claimants
                     through the process of applying and receiving SSI benefits.

                     Status (Implemented): A draft SSI Spotlight was prepared and
                     sent to SSA’s field components for review. It provides specific
                     instructions on reporting requirements for wages or self-
                     employment. The final POMS containing the SSI Spotlight was sent
                     to OPIM for printing and distribution in mid-May 2001.

                     Responsible SSA Component: DCDISP




Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997-   A-12
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
Recommendation 6: Print wage estimates and detailed reporting instructions on
                the claims receipt form.

                     A claims receipt form is provided at initial application, but
                     information about reporting responsibilities is broad and covers a
                     wide range of reportable events. It does not specifically have
                     information about what earned income is being used to calculate
                     benefits nor does it instruct the individual on what types of evidence
                     are required to verify earned income.

                     Status (Pending SSA’s Systems' 5-year Prioritization): The
                     claims receipt form is being revised and a request has been
                     prepared for the Office of Systems to make the appropriate
                     modifications to the Modernized Supplemental Security Income
                     Claims System (MSSICS).

                     Responsible SSA Component: DCDISP

                     Update on Status: The claims receipt form has been revised.
                     ODISP’s Office of Program Benefits staff will meet with Office of
                     Systems staff by the end of August 2001 to discuss the proposed
                     MSSICS modifications.

Recommendation 7: Develop public information to address concurrent
                entitlement.

                     An individual can receive SSI (title XVI) and Social Security (title II)
                     benefits at the same time. This is called concurrent entitlement.
                     The two programs have different income rules and reporting
                     responsibilities. Often, claimants are confused between the two.

                     Status (Implemented): Information addressing claimants reporting
                     responsibilities when they are concurrently entitled was included in
                     the Rights and Responsibilities booklet and booklets for titles II and
                     XVI.

                     Responsible SSA Component: DCCOM

Recommendation 8: Revise operating procedures to clarify what is considered to
                be acceptable evidence.

                     When claimants report unemployment status, CRs must verify this
                     information. Operating procedures list in order of priority the
                     various acceptable forms of evidence CRs can obtain to remove
                     wages from a claimant’s record. However, we found that CRs did



Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997-   A-13
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     not consistently follow the priority list and accepted the least
                     preferred form of evidence.

                     Status (Implemented): SSA’s operating procedures were revised
                     in March 1999 to clarify when signed allegations from recipients
                     stating that they are no longer working are acceptable for
                     terminating wages.

                     Responsible SSA Component: DCDISP

Recommendation 9: Revise operating procedures to prompt development of
                cafeteria plans.

                     A cafeteria plan is a written benefit plan offered by an employer
                     where participants choose “cafeteria style” from a menu of two or
                     more cash or qualified benefits. During this review, CRs indicated
                     they were unaware of the need to develop cafeteria plans or
                     misunderstood the operating procedures.

                     Status (Implemented): In March 1999, SSA operating procedures
                     on “Wages” was revised to include cross-references to the
                     operating procedure for “cafeteria plans.”

                     Responsible SSA Component: DCDISP

Recommendation 10: Revise the MSSICS to assist CRs in developing blind and
                impairment-related work expenses.

                     Work expenses related to an individual’s blindness or other
                     impairment can be deducted from his/her wages when determining
                     eligibility and benefits. We found CRs infrequently encounter these
                     types of cases. They told us it would be helpful to have on-line
                     reminders to prompt for this information.

                     Status (Pending SSA’s Systems' 5-year Prioritization): To date,
                     the Office of Systems has not received a service request to include
                     this recommendation as part of its Systems' 5-year plan.

                     Responsible SSA Component: DCDISP

                     Update on Status: The issue raised in this recommendation is
                     being addressed through systems enhancements under active
                     development or currently implemented. These include the
                     Modernized Return to Work (MRTW) and the Continuing Disability
                     Review Control File (CDRCF) systems. These systems will
                     incorporate a wide variety of case and management information


Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997-   A-14
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     enhancements relating to all the work incentives provisions,
                     including Impairment-Related Work Expenses.

                     OESP plans to pilot the MRTW in the fall of 2001. In early 2002,
                     we hope to implement the MRTW nationally using this LAN-based
                     software. Then, by Fall 2002, national implementation is expected
                     for a single database.

                     The CDRCF Ticket-related queries are now in use and Field Offices
                     have access to this query function. The Employment Network (EN)
                     queries will be in use when EN data is available for input. The
                     other CDRCF functions will be available when Tickets are released.

Recommendation 11: Provide training to field office personnel on cafeteria plans
                and blind and impairment-related work expenses.

                     Little reference is given to cafeteria plans and blind and
                     impairment-related work expenses during basic CR training. It is
                     the general expectation that additional on-the-job training for these
                     areas will supplement basic training. However, we did not find this
                     to be the case.

                     Status (Implemented): In April 1999, IVT was conducted on SSI
                     High-Risk, which included information on cafeteria plans and blind
                     and impairment-related work expenses.

                     Responsible SSA Component: DCDISP/DCHR

Recommendation 12: Revise the MSSICs to capture self-employment income for
                the current taxable year.

                     At initial application, CRs are required to ask about any self-
                     employment for the individual or any deemors. The general rule is
                     that it is counted for 12 months regardless of how long the
                     individual is engaged in the operation of the business or when the
                     income is received. We found that CRs frequently misapplied the
                     rule and only inquired about self-employment activity occurring at
                     the time of filing.

                     Status (Implemented): In October 2000, MSSICS began
                     capturing self-employment income for the current taxable year.

                     Responsible SSA Component: DCDISP




Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997-   A-15
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
Supplemental Security Income Unearned Income Issue Team September 1999


Of the 8 report recommendations, 3 have been implemented; 2 are in the process of
being implemented; 2 are pending SSA’s prioritization within its Systems' 5-year plan;
and 1 did not have SSA concurrence.

Recommendation 1: Include a handout listing the types of unearned income in
                the recordkeeper or print the list on the recordkeeper itself.
                Field offices should be reminded of operating procedure
                guidance for using and distributing the folders and of the
                reordering process.

                     Failure to report changes affecting entitlement and payment
                     amounts has historically been a problem in the SSI program.
                     SSA’s tri-fold recordkeeper is a product that allows claimants to
                     keep necessary records, for example, pay stubs, receipts, utility
                     bills, etc. It allows claimants to store information regarding types of
                     unearned income.

                     Status (Implemented): In April 2000, a listing in English of the
                     types of unearned income was printed on the recordkeeper folder
                     and a listing in Spanish was done as a handout.

                     Responsible SSA Component: DCDISP


Recommendation 2: Retitle the operating procedure section ”Prizes" as
                "Gambling and Lottery Winnings and Other Prizes” so CRs
                can more easily locate instructions about properly counting
                gambling/lottery winnings.

                     Gambling and lottery winnings are emerging as a source of
                     unearned income. There is not a separate section on gambling.
                     Rather, the information is subsumed under the section on "Prizes."

                     Status (Implemented): In October 2000, the chapter in operating
                     procedures on “Prizes” was retitled “Gambling, Prizes and Other
                     Winnings,” and specific policy was included on gambling and lottery
                     winnings.

                     Responsible SSA Component: DCDISP



Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997-   A-16
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
Recommendation 3: Modify the MSSICS Income Menu (IMEN) screen by adding
                parathentical information, which includes a reference to
                gambling and lottery winnings, “Other Income or Support Not
                Previously Mentioned.”

                     The on-line IMEN screen used during initial claims taking and
                     determinations has a limited list of sources of income. Gambling
                     and lottery winnings were not included in the list of unearned
                     income. (MSSICS is SSA’s automated system used to input SSI
                     claims-related information.)

                     Status (Pending SSA’s Systems' 5-year Prioritization): A
                     request to modify the MSSICS income screen to include a
                     reference to gambling and lottery winnings is being drafted for
                     inclusion in the Systems' 5-year plan.

                     Responsible SSA Component: DCDISP

                     Update on Status: Following discussions with the Office of
                     Systems, this recommendation was combined with
                     recommendation 4. The IOTH screen will be modified, but the
                     IMEN screen did not contain enough space to make the
                     recommended modification.

Recommendation 4: Modify the MSSICS Income Other (IOTH) screen so that
                gambling and lottery winnings can be listed under “Type
                Received.”

                     Gambling and lottery winnings are also not included on the on-line
                     input screen for “Other Income or Support Not Mentioned.”

                     Status (Pending SSA’s Systems' 5-year Prioritization): A
                     request to modify the MSSICS IOTH screen to include a reference
                     to gambling and lottery winnings is being drafted for inclusion in the
                     Systems' 5-year plan.

                     Responsible SSA Component: DCDISP

                     Update on Status: It has been determined that this change could
                     be made without it needing to be submitted for inclusion in the 5-
                     year plan. On June 15, 2001, ODISP’s Office of Program Benefits
                     staff submitted revised language on gambling and lottery winnings
                     to the Office of Systems. They will proceed with modification of the
                     IOTH screen.




Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997-   A-17
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
Recommendation 5: Ensure that recommendations from the SSI Unearned
                Income report and prior Payment Accuracy Task Force reports
                are included in the Agency’s monthly SSI Initiatives Tracking
                Report, subsequent SSI management reports, and other
                information systems related to SSI high-risk efforts.

                     Information regarding the SSI Payment Accuracy Task Force
                     initiatives was not included in any of the Agency’s monthly tracking
                     reports.

                     Status (Implementation in Progress): All actions are done or are
                     being completed at this time.

                     Responsible SSA Component: DCDISP

                     Update on Status: Implemented. Components have been advised
                     to include this.

Recommendation 6: Adapt the SSI unearned income portion of the April 1999 IVT
                for on-line training via SSA’s virtual campus.

                     An IVT was conducted in April 1999 on SSI Unearned Income
                     policy revisions. However, the degree of field office staff
                     participation in the training varied based on their workloads and IVT
                     access.

                     Status (Implemented): In July 2000, the SSI unearned income
                     portion of the April 1999 IVT became available on the Office of
                     Training’s website.

                     Responsible SSA Component: DCHR

Recommendation 7: The Office of Disability and Income Security Programs
                (ODISP), as the SSA lead component for SSI High-Risk and
                Information Exchange activities, should discuss with the
                Department of Health and Human Services’ (HHS) OCSE the
                sufficiency of existing laws to permit on-line access to State
                Child Support Enforcement (CSE) agency records on child
                support payments. If sufficient, then ODISP should request
                that HHS/OCSE issue a guidance letter to the State CSE
                agencies to provide SSA title XVI CRs with on-line single query
                access to such records. ODISP should then request that the
                Office of Operations make access to CSE as one of the target
                agencies in its SSA Access to State Records Online (SASRO)
                project. However, if existing laws are not sufficient, we
                recommend that ODISP should request the Office of


Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997-   A-18
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     Legislation and Congressional Affairs to propose a legislative
                     initiative to address SSA or OCSE concerns.

                     CRs believe that on-line access to State data will improve detection
                     of unearned income, particularly child support payments. SSA has
                     a legislative proposal to permit access to OCSE child support data.
                     SSA has a mechanism in place they can use to help access state
                     child support data. The SASRO project could be used to pursue
                     State agreements for child support data.

                     Status (SSA Did Not Concur): SSA commented that it is awaiting
                     the outcome of negotiations regarding costs involved in using
                     OCSE’s child support data, and it does not want to complicate
                     negotiations by discussing direct on-line access through SASRO.

                     SSA is preparing a legislative proposal to authorize access to the
                     OCSE’s records on child support payments.

                     Responsible SSA Component: DCDISP

                     Update on Status: SSA has discussed with HHS the sufficiency of
                     existing laws to permit SSA online access to State Child Support
                     Enforcement agency records on child support payments. While
                     HHS’ OGC formal response is pending, they have indicated to SSA
                     that it is their position that Federal law does not authorize a Title IV-
                     D agency (i.e., a Child Support Agency) to provide SSA with State
                     Case Registry information, such as payment information or other
                     case data.

Recommendation 8: Include the following addendum to SSA’s current legislative
                proposal to access the Federal Case Registry of Child Support
                Orders: “States should be required to provide data on child
                support collections, receipt, and distribution to the Federal
                Case Registry.”

                     Status (Implementation in Progress): SSA will consider this
                     recommendation as it develops its legislative package.

                     Responsible SSA Component: DCLCA

                     Update on Status: No Change




Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997-    A-19
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
   Title II Relationship and Dependency                          September 2000


The report was released in September 2000. SSA’s Executive Senior Management
Staff was briefed on November 16, 2000 and charged with implementing the report’s
recommendations. The report also included a section of “Other Issues,” with related
suggestions that cut across all payment accuracy issues. To date, we have not
received the Agency’s official response; however, we are aware of one action that has
begun. Information for Recommendation 9 and actions regarding the “Other Issue”
discussed after Recommendation 9 is based on work we either conducted or in which
we participated.

Recommendation 1: Add the following wording to Form SSA-2519 to help CRs
                develop relationships for out-of-wedlock children: “State of
                domicile” and “When considering the status of an out-of-
                wedlock child for entitlement, a child cannot be disallowed
                until applicable State intestacy law is considered.”

                     Form SSA-2519 (Child Relationship Statement) is required in all
                     disallowed child cases where the relationship to the primary
                     numberholder is not established for an out-of-wedlock child. The
                     Form documents the potential existence of evidence the primary
                     numberholder acknowledged a parent-child relationship. However,
                     the Form only assists CRs in developing child relationships under
                     section 216(H)(3) of Federal law. It does not provide guidelines for
                     developing and documenting out-of-wedlock children under State
                     intestacy law, which must be done before a disallowance can be
                     considered proper.

                     Status: Not reported to date.

                     Responsible SSA Component: DCDISP

                     Update on Status: Changes to the Form SSA-2519 will be
                     completed and released to the Office of Publications and Logistics
                     Management for printing and distribution by November 2001.

Recommendation 2: Place more emphasis on initial CR training and providing
                subsequent refresher training to emphasize consideration of
                State intestacy laws before disallowing a claim for an out-of-
                wedlock child.

                     During our discussions with program service center reconsideration
                     reviewers, we found they believed CRs did not always consider
                     State intestacy laws before denying the claim of an out-of-wedlock

Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997-   A-20
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     child. Their opinion was based on the number of initial decisions
                     made by CRs that they are overturning. The CRs also reported
                     receiving insufficient training about considering State intestacy law
                     before disallowing a claim. Almost 60 percent of the CRs could not
                     recall being provided any training on processing out-of-wedlock
                     child claims using State intestacy laws. Additionally, during initial
                     CR training, there is only one statement about State intestacy laws
                     contained in the training materials.

                     Status: Not reported to date.

                     Responsible SSA Component: DCHR/DCO

                     Update on Status: The Title II Claims Representative Entry-Level
                     course contains a lesson on Child’s Benefits (CR-20). The lesson
                     includes information on entitlement factors, child relationship types,
                     dependency, and application requirements for child’s benefits. The
                     laws and regulations pertaining to state intestacy laws are
                     referenced in the lesson as well as in an exhibit outlining the
                     requirements and documentation necessary for each type of child.
                     The exhibit can be used as a desk guide when developing child’s
                     claims. POMS procedures and instructions have been reorganized
                     and updated to reflect the revised up-to-date rules and regulations
                     in the state intestacy laws. In December 2000, an IVT transmittal
                     training broadcast was conducted on the revised POMS transmittal.


Recommendation 3: Modify Form SSA-783 to include the number of individuals
                in a household and their income.

                     During our site visit discussions, 80 percent of the CRs and two-
                     thirds of the reconsideration reviewers said that one-half support
                     claims were their most difficult to process relative to other types of
                     relationship/dependency claims. The most frequent problems CRs
                     mentioned in processing relationship/dependency claims were
                     development and computation of one-half support. Form SSA-783
                     (Statement Regarding Contributions) is used to determine one-half
                     support. The Form does not record the number of persons living in
                     a household and the amount of their income.

                     Status: Not reported to date.

                     Responsible SSA Component: DCDISP




Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997-   A-21
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     Update on Status: Changes to the Form SSA-783 will be
                     completed and released to the Office of Publications and Logistics
                     Management for printing and distribution by November 2001.

Recommendation 4: Develop supplemental tool(s) to help with one-half support
                computation, e.g., an interactive computation screen
                supported by the Interactive Computation Facility, a worksheet
                for manual computation, and/or a desk guide.

                     Recommendations 3 and 4 are linked. See explanation of issue in
                     Recommendation 3.

                     Status: Not reported to date.

                     Responsible SSA Component: DCDISP

                     Update on Status: We will contact Office of Systems to initiate
                     discussions on developing an electronic version of the one-half
                     support calculations by September 2001. The results of those
                     discussions will determine the extent to which this recommendation
                     can be implemented and the timetable for completion.

Recommendation 5: Revise operating procedures to include the September 1996
                program circular on determining one-half support for
                stepchildren.

                     Current operation procedures on stepchild dependency
                     requirements refer technicians to a section for guidance on how to
                     determine one-half support. However, the transmittal for that
                     chapter had not been updated since April 1990, preceding the date
                     of the program circular.

                     Status: Not reported to date.

                     Responsible SSA Component: DCDISP

                     Update on Status: RS 01301 will be updated to include the
                     instructions in the September 1996 program circular and released
                     to the Office of Publications and Logistics Management for printing
                     and distribution by June 2002. In the interim, the program circular
                     continues to be operative and the instructions in the electronic
                     version of RS 01301 will be cross-referred to the program circular.


Recommendation 6: Stress the importance of field office staff using Shared
                Process to document evidence and the Report of Contact


Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997-   A-22
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     screen to document special determinations so that
                     reconsideration reviewers have needed information to process
                     requests for reconsideration of an initial determination.

                     Adjudicators are required to document every decision that disallows
                     a child for failure to establish a parent-child relationship. They are
                     also required to electronically store evidentiary documents
                     submitted in a claim by recording identifying data about the
                     documents on the evidence screen from the Shared Process menu.

                     Status: Not reported to date.

                     Responsible SSA Component: DCDISP

                     Update on Status: Recommendations 6 and 7 will be combined.
                     One program circular on documentation requirements and the
                     availability of approved legal precedent opinions will be released to
                     the Office of Publications and Logistics Management for printing
                     and distribution by November 2001.

Recommendation 7: Distribute a program circular or other form of
                communication to remind field offices and program service
                centers that legal precedent opinions on State and District of
                Columbia law are available in operating procedures stored on
                CD-ROM.

                     The State legal precedent opinions in operating procedures stored
                     on CD-ROM provide all adjudicators with one, easily accessible,
                     centrally maintained source for legal precedent opinions and a
                     streamlined process for requesting new opinions. The ability to
                     update the data base each month provides immediate access to
                     the most current advice on the application of State and District of
                     Columbia law. This ensures claimants consistent, equitable
                     treatment because adjudicators can more readily consider and
                     apply the most current version of State law.

                     Status: Not reported to date.

                     Responsible SSA Component: DCDISP

                     Update on Status: See recommendation 6

Recommendation 8: Reinforce reporting responsibilities either by modifying the
                MCS screen and the application path to output and print the
                “claims type specific” reporting responsibilities on the
                application receipt itself or by generating an alert on the


Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997-   A-23
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                      Developmental Worksheet as a reminder to print the reporting
                      responsibilities. This would eliminate the need to revisit the
                      claims path for additional printing.

                     SSA relies on claimants to self-report any changes that might affect
                     the amount and continued receipt of benefit payments. Even with
                     the various methods SSA uses to inform claimants of their reporting
                     responsibilities, almost two-thirds of the CRs told us claimants still
                     assert they do not know they are supposed to self-report changes.
                     Nonreporting still occurs despite the fact that CRs told us they
                     advise claimants of their reporting responsibilities.

                     Status: Not reported to date.

                     Responsible SSA Component: DCDISP

                     Update on Status: While this recommendation is feasible, other
                     Systems priorities will preclude initiating work until early 2002.

Recommendation 9: Conduct a study to determine the feasibility of continuing to
                send Beneficiary Recontact Program mailers to children ages
                15 to 17 and to discern whether there are more efficacious
                ways to detect unreported marriages for this age group.

                     SSA’s Beneficiary Recontact Program was implemented in 1993 to
                     detect unreported marriages, reports of no child in-care situations
                     for young widow/widowers, and unreported marriages for young
                     children aged 15 to17. Being unmarried is a requirement for
                     entitlement to a child’s benefits. Before 1996, there was a question
                     on a representative payee accounting form that asked about a
                     child’s marital status. In 1996, children aged 15 to 17 began
                     receiving mailed recontact forms to report their marital status.
                     Seventy thousand mailers (840,000/year) were distributed per
                     month to this age group in calendar year 1999.

                     Status (Implementation in Process): On January 19, 2001, the
                     OIG issued an early alert notifying SSA that, in Calendar Years
                     1999 and 2000, the Beneficiary Recontact Report, Forms SSA-
                     1587 and SSA-1588, identified a small number of unreported
                     marriages. Based on our review, we recommended SSA not renew
                     its contract to mail the forms to detect unreported marriages for
                     dependent children ages 15-17. SSA is considering the
                     appropriate action to address this recommendation.

                     Responsible SSA Component: DCDISP



Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997-   A-24
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     Update on Status: Following release of the Payment Accuracy
                     Report, the Office of Quality Assurance and Performance
                     Assessment (OQA) agreed to additional study of the cost benefit of
                     the Beneficiary Recontact Program for children age 15 to 17. They
                     are currently contacting the payees of children in the targeted age
                     group who failed to return the recontact form resulting in
                     termination of the child’s benefit. These benefits are terminated for
                     marriage according to the protocol of the automated program.
                     Based on the results of their investigation, we anticipate that
                     changes will be made to the automated program for children. The
                     results are due by the end of the summer 2001.




Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year 1997-   A-25
Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                                                                           Appendix B

Update of the Status of Corrective Action on
Certain Payment Accuracy Task Force’s
Recommendations
We obtained updates in April and September 2002 on the status of corrective actions
taken since SSA’s July 20, 2001 status report. SSA provided the updated information in
response to our inquiry. Accordingly, we did not audit or validate the information
provided by the Agency. The report title, recommendation number, and updated status
provided by SSA are listed below.




Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year    B-1
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                   PAYMENT ACCURACY TASK FORCE
                        1997 – 2000 REPORTS
                        SSA Status Update (As of 09/19/02)



Earnings Record Issue Team                                              September 1997


Of the 18 recommendations, 12 have been implemented; 4 are being implemented; and 2
are pending prioritization within The Deputy Commissioner for System Priority Plan.

Recommendation 1: Modify policy to require review of pre-1978 military wages.

                     Current policy requires claims representatives (CR) to review a
                     claimant’s earnings records for possible earnings inaccuracies for
                     the years 1978 to 2001. It is not a requirement for years before
                     1978. As a result, pre-1978 military service wages needed for
                     benefit computation were frequently overlooked.

                     Status (Implemented): The Wage Development chapter of SSA’s
                     operating procedures is being rewritten and will include a review of
                     pre-1978 military wages. The expected completion date is
                     November 2002. In June 1999, SSA implemented military service
                     on-line help screens to provide guidance to claims representatives in
                     obtaining military service evidence. The screens included guidance
                     regarding review of pre-1978 military wages.

                     Responsible SSA Component: DCDISP

Recommendation 2: Improve the presentation quality of the military service wage
                tables.

                     CRs refer to military wage tables in their operating procedures to
                     obtain basic pay scales for years of service for the various military
                     ranks. This information is used in benefit computation. The CRs
                     found the tables difficult to use, as parts of the table were completely
                     illegible.

                     Status (Implemented): In September 1997, the presentation quality
                     of the military service wage tables was improved.

                     Responsible SSA Component: DCDISP

Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year          B-2
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
Recommendation 3: Print the claimant’s statement regarding periods of military
                service on the application.

                     Claimants frequently disagree with the military service dates used in
                     their benefit computations. To ensure the correct information is used
                     in the computation, the claimant’s periods of military service need to
                     be generated in a printed application to provide them with
                     opportunity to review the information.

                     Status (Implemented): In June 1999, SSA’s operating procedures
                     were revised to include this information and the Modernized Claims
                     System (MCS) was modified to document the claimant’s statement
                     regarding periods of military service on the application. The MCS is
                     an automated system used to input Disability and Retirement
                     Survivors Insurance claims related data.

                     Responsible SSA Component: DCO

Recommendation 4: Generate a reminder on the development worksheet to
                prompt claims representatives to initiate military service
                development.

                     CRs indicated there are often so many development issues to
                     consider when processing a claim, it is possible to overlook
                     development of military service. Many CRs used the MCS
                     development worksheet to ensure claims are developed and
                     documented. However, military service evidence is not shown on
                     the worksheet.

                     Status (Implemented): As part of the MCS update in September
                     1998, a reminder is now generated for CRs to initiate military service
                     development.

                     Responsible SSA Component: DCO

Recommendation 5: Generate a diary when military service is alleged and the
                claim is being adjudicated.

                     CRs can award benefits so a claimant can receive partial benefits
                     until military service evidence is received. If a diary is not
                     established to control receipt of the evidence, the claimant may not
                     receive the appropriate military service credit.

                     Status (Implemented): The generation of a diary was included in
                     the November 2000 MCS update. When military service evidence is
                     not readily available, CRs can award partial benefits until evidence of
                     military service is received. An automated systems diary has been
Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year         B-3
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     established to remind the representatives to develop military service
                     evidence.

                     Responsible SSA Component: DCO

Recommendation 6: Correct “scouting” and “feedback” terminology in operating
                procedures.

                     “Scouting” is the process previously used by CRs to research an
                     allegation of incorrect, missing or under/overstated earnings where
                     an employer is known. With the advent of the Earnings
                     Modernization System (EMS) Release 2.8, the process became
                     automated and is now referred to as “feedback.”

                     Status (Implemented): The operating procedures were revised in
                     September 1998 to change the term “scouting” to “feedback.”

                     Responsible SSA Component: DCO/DCDISP

Recommendation 7: Automate the feedback procedure used to prove alleged
                military service during 1957-1967.

                     For CRs to obtain feedback information, they must exit the on-line
                     claims taking process and enter into the EMS. By incorporating the
                     feedback procedure into the claims taking process, CRs have the
                     discretion to obtain feedback while discussing military service
                     evidence with the claimant.

                     Status (Pending The Deputy Commissioner for Systems Priority
                     Plan): The automated feedback procedure used to prove military
                     service during 1957 to 1967 is scheduled for implementation as part
                     of the MCS enhancement scheduled for 2002.

                     Responsible SSA Component: DCS

                     Update on Status: No Change

Recommendation 8: Educate claims representatives on specific military service
                procedures.

                     CRs indicated they found military policies and procedures difficult to
                     interpret and follow. Additional training is needed on the proper use
                     of military service codes, when and how to use military service
                     tables, when it is appropriate to request feedback, and how feedback
                     differs from the “scouting” (now “feedback”) process.

                     Status (Implemented): In March and April 2000, an interactive
                     video training (IVT) focused entirely on military service procedures.
Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year         B-4
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     Responsible SSA Component: DCDISP

Recommendation 9: Include “County Courthouses” as another potential source
                for military service proofs.

                     Several CRs indicated they found it more expedient to obtain military
                     service records from a courthouse than to wait for evidence
                     requested from a branch of the military service. The local
                     courthouse maintains the original copies of the veterans’ discharge
                     papers, which is the preferred evidence for proof of military service.

                     Status (Implemented): In June 1998, SSA operating procedures
                     were revised to emphasize “County Courthouses” as another
                     potential source for obtaining proof of military service.

                     Responsible SSA Component: DCDISP

Recommendation 10: Implement an on-line edit to prevent the incorrect use of the
                proof code “precluded” used for post-1956 military service.

                     Post-1956 military service can be used in calculating Social Security
                     benefits unless the Railroad Retirement Board has given credit for
                     the same service. The edit is to prevent CRs from giving the
                     claimant credit for post-1956 military service until they check that the
                     Railroad Retirement Board has not given the claimant credit.

                     Status (Implemented): As part of the June 1999 MCS update, an
                     edit was incorporated into the screen for Military Service to prevent
                     incorrect use of the proof code “precluded” for post-1956 military
                     service.

                     Responsible SSA Component: DCO

Recommendation 11: Revise the military service question on MCS to solicit
                additional information regarding active reserve and National
                Guard service.

                     CRs were not identifying all periods of military service. They were
                     not specifically asking the claimants about active reserve or National
                     Guard service.

                     Status (Implemented): Language is being incorporated in the latest
                     MCS update to solicit information regarding active reserve and
                     National Guard service.

                     Responsible SSA Component: DCO

Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year          B-5
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
Recommendation 12: Generate a systems alert when the claimant alleges no
                military service, and the system can identify possible military
                service.

                     For survivors’ claims, the claimant sometimes does not or cannot
                     remember the Social Security numberholder served in the military.
                     SSA has a data base of military service information obtained when a
                     prior claim was filed. An alert was needed in MCS to notify CRs of
                     the existence of military service evidence.

                     Status (Pending: The Deputy Commissioner for Systems
                     Priority Plan): SSA is evaluating a front-end systems alert to advise
                     CRs of possible military service.

                     Responsible SSA Component: DCO

                     Update on Status: No Change

Recommendation 13: Establish an intercomponent team to improve military
                service procedures.

                     CRs were confused by SSA’s policies and procedures and found
                     them difficult to interpret and follow. Clarification was needed.

                     Status (Implementation in Progress): A team was formed and
                     prepared draft military operating procedures, which have been
                     released for intercomponent review. Expected release date of the
                     final procedures is June 2001.

                     Responsible SSA Component: DCDISP

                     Update on Status: The completion of the revised military operating
                     procedures has been delayed to provide resources to implement P.L.
                     107-117, the Department of Defense Appropriations Act of 2002, and
                     P.L. 107-90, the Railroad and Survivors’ Improvement Act of 2001.
                     Both were effective January 1, 2002 and are to be implemented in
                     November 2002. We expect to resume work on the military
                     operating procedures after all work on the legislation is finished and
                     anticipate completing the revised procedures by spring 2004.

Recommendation 14: Clarify the policy pertaining to lag earnings.

                     Lag earnings are unposted earnings that were paid during the
                     current year and the year preceding the claimant’s date of filing for
                     benefits. SSA’s operating procedures did not indicate what is
                     accepted evidence of lag earnings.


Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year         B-6
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     Status (Implementation in Progress): The policy on lag earnings
                     is being revised as part of the military service procedure rewrite
                     mentioned in Recommendation 1 Status.

                     Responsible SSA Component: DCDISP/DCO

                     Update on Status: Expected completion date of the chapter is
                     November 2002.

Recommendation 15: Emphasize the importance of checking and resolving
                earnings discrepancies on the Personal Earnings and Benefit
                Estimate Statement (PEBES).

                     PEBES provides the Agency an opportunity to heighten public
                     awareness of the importance of accurate earnings information. The
                     PEBES statement does not clearly encourage the public to take
                     action to correct earnings information. (Note: PEBES was recently
                     renamed “Social Security Statement.”)

                     Status (Implemented): Language was included in the Rights and
                     Responsibilities booklet, the Social Security Statement, and monthly
                     information packets. They stress the importance of individuals
                     checking and resolving earnings discrepancies on the Social
                     Security Statements to ensure their earnings records are correct.
                     Changes to the language of the Statement to clarify that individuals
                     should report incorrect earnings only for years prior to the current
                     year (since current-year earnings would not yet appear on the
                     Statement) made a dramatic difference in the number of calls
                     received by Social Security offices.

                     Responsible SSA Component: DCCOM

Recommendation 16: Support current efforts to develop a more comprehensive
                earnings query.

                     CRs generate an on-line earning query(ies) to verify earnings during
                     claims interviews. The query provides the CR with total wages for
                     the year, but it does not provide CRs with earnings alerts or quarters
                     of coverage. A comprehensive earnings query generated at the
                     beginning of a claims interview would provide the CR and claimant
                     information that could facilitate identifying and correcting earnings
                     records.

                     Status (Implemented): In September 2000, SSA completed work
                     on the Informational/Certified Earnings Record (ICER), which
                     provides more comprehensive earnings information. ICER facilitates
                     identification and correction of correcting earnings discrepancies.

Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year        B-7
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     Responsible SSA Component: DCO

Recommendation 17: Develop a system to provide meaningful feedback to
                employees on payment accuracy.

                     CRs seldom receive information regarding the accuracy of their
                     work. The Agency annually conducts an Index of Dollar Accuracy
                     (IDA) study to provide Agency management with payment accuracy
                     data at a national level rather than at a field office level.

                     Status (Implementation in Progress): IDA is being restructured to
                     provide more current, useable feedback to field offices and program
                     service centers on the payment accuracy of recent claims (title II and
                     title XVI) and redetermination (title XVI) transactions. The previous
                     methodology did not allow identification of trends relating to the types
                     of payment errors being made by regions or for the regions to share
                     this information with their field offices.

                     Responsible SSA Component: DCFAM

                     Update on Status: OQA is piloting a new title II claims review
                     process that has “meaningful feedback to employees on payment
                     accuracy” as one of its goals. The pilot is expected to be completed
                     by July 2002. After analyzing the results, the Agency will decide
                     whether to implement the review as a replacement to the current
                     Index of Dollar Accuracy review. We anticipate the new review will
                     consist of 10,000 new claims, annually (as opposed to 2,500 in IDA),
                     and will provide Operations with timely feedback on current
                     adjudications.

Recommendation 18: Perform a study of Earnings Modernization 2.8 earnings
                adjustments processed by field offices.

                     The EMS allows field office personnel to electronically correct an
                     individual’s earnings record. However, many CRs were having
                     difficulty completing earnings corrections because the system design
                     operated differently from the claims input systems they were using.

                     Status (Implementation in Progress): This item has been included
                     in the “Earnings Process Improvement Key Initiative” as part of
                     SSA’s Strategic Plan. The study is in the planning process.

                     Responsible SSA Component: DCO

                     Update on Status: This recommendation is in the planning process.
                     Analysis is still being performed. The due date is to be determined.


Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year          B-8
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
SSI Earned Income Issue Team                                        September 1998


Of the 12 report recommendations, 7 have been implemented; 2 are pending
prioritization within The Deputy Commissioner for System Priority Plan; and 3 did not
have SSA concurrence.

Recommendation 1: Perform a study to determine if the State Wage Match could
                be expanded to confirm earned income information.

                     The Office of Child Support Enforcement (OCSE) data base provides
                     quarterly wage information from State data that SSA can match
                     against its wage data to detect differences in reported wage
                     amounts. The new wage match could be expanded for wages
                     detected in excess of a $250 difference to (1) encourage self-
                     reporting by notifying individuals that wages on the OCSE data base
                     differ from those in SSA’s records, (2) revise wage estimates
                     upwards for those individuals who do not respond to a notification of
                     excess wages, and (3) verify wages within a certain tolerance level
                     to eliminate unnecessary field office work.

                     Status (SSA Did Not Concur): SSA has expressed concerns over
                     this recommendation. SSA currently matches State wage quarterly
                     information with earned income amounts on SSA’s Supplemental
                     Security Income (SSI) record to identify unreported earned income.
                     The accuracy of the information provided by the States varies, and
                     SSA believes this would not be a good source to confirm earned
                     income.

                     Responsible SSA Component: DCFAM

                     Update on Status: No change

Recommendation 2: Reduce the maximum redetermination period to 2 years.

                     Redeterminations are conducted on selected cases each year to
                     ensure SSI recipients are eligible for, and receiving, correct SSI
                     payments. SSA uses a profile system to score each record based
                     on the likelihood of an error. Cases may be selected every year or
                     go as long as 6 years without a review. CRs indicated that 6 years is
                     too long to expect claimants to maintain records and provide
                     accurate information. In addition, SSA’s policy prevents CRs from
                     adjusting payments or collecting overpayments that occur beyond a
                     2-year period.
Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year        B-9
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     Status (SSA Did Not Concur): Although the Agency did not concur,
                     its Office of Quality Assurance is considering incorporating this as a
                     potential study in its Fiscal Year 2002 workplan.

                     Responsible SSA Component: DCFAM

                     Update on Status: OQA initiated the second part of the study of the
                     redeterminations that are sent to Wilkes-Barre Data Operations
                     Center (DOC) for processing. These are the 6-year cycle
                     redeterminations conducted on the cases profiled as low or medium
                     error. The study was undertaken to determine (1) the payment
                     accuracy of these cases and the amount of payment changes that
                     may have occurred in the years within the 6-year cycle that are
                     barred from correction because of the 2-year administrative finality
                     period under the SSI program and (2) depending on the study
                     results, whether the Agency needs to consider any adjustment in the
                     frequency in which these cases are redetermined.

                     The first phase looked at cases the DOC completed without
                     recontacting the recipient. The payment accuracy of these cases
                     was high (97.8 percent).

                     In the second phase, we will examine the cases that are transferred
                     from the DOC to the field offices for processing. The case reviews
                     for the second part are scheduled to be completed in September
                     2002. The final report should be finished by December 31, 2002.

Recommendation 3: Evaluate the use and enforcement of penalties and determine
                whether the penalty assessment process should be simplified.

                     SSI recipients can be assessed penalties when they fail to report
                     timely changes affecting their eligibility or payment amount. Most
                     CRs had never assessed a penalty and almost all stated that, while it
                     is the Agency’s policy to assess penalties, it is not encouraged. The
                     penalty assessment process is costly for CRs to perform and takes
                     time away from processing claims.

                     Status (SSA Did Not Concur): SSA commented that the Foster
                     Care Act addresses this recommendation. IVT was conducted in
                     October 2000 on the Foster Care Act Provision, and language
                     regarding the provision has been included in SSA’s operating
                     procedures. The provision allows for SSA to levy a penalty against
                     the individual who makes a false or misleading statement that would
                     impact determining title II or title XVI eligibility or benefit amounts.
                     The penalty is nonpayment of benefits for 6 months for the first
                     occurrence, 12 months for the second, and 24 months for
                     subsequent occurrences.
Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year         B-10
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     Responsible SSA Component: OGC

                     Update on Status: The Administrative Sanctions process was
                     successfully implemented nationwide in October 2000. The NY RO
                     developed a database to provide management information. Currently
                     there are 79 cases in the database. Of those cases, the sixty-day
                     notice to impose a sanction has been sent to the claimant in 19
                     cases. Two of these cases are in suspension and the remainder are
                     still in the appeals period. Of the remainder of the cases, some are
                     pending in OIG and some have been returned to the FO and are
                     awaiting the preparation of the 60-day notice. In six cases, a decision
                     was made not to impose a sanction. The Office of Program Benefits
                     recently circulated within SSA for component signoff draft final rules
                     that would adopt without change interim final rules, which were
                     published in the Federal Register July 10, 2000. The final rules were
                     published on April 29, 2002.

Recommendation 4: Include procedures in the Teleservice Center (TSC) Operating
                Guide for recording SSI work reports for aged individuals and
                deemors.

                     The TSC Operating Guide instructs staff on how to handle different
                     inquiries via SSA’s 800-number. It includes detailed instructions on
                     taking work reports for disabled workers, but it does not address
                     handling reports from aged individuals or deemors. (Deemors are
                     individuals who agree to support an alien as a condition of the alien’s
                     admission to the United States.)

                     Status (Implemented): Procedures for recording work reports for
                     aged individuals and deemors have been included in the operating
                     procedures and in the automated support program used by TSCs.

                     Responsible SSA Component: DCO


Recommendation 5: Issue a Spotlight on wage and self-reporting requirements.

                     Reporting instructions were scattered among various publications
                     and did not indicate the types of evidence individuals need to provide
                     SSA. To ensure that SSI recipients and representative payees are
                     aware of and understand reporting requirements, SSA needs to
                     provide clear instructions. SSA uses Spotlights as handouts that
                     contain general information to help SSA claimants through the
                     process of applying and receiving SSI benefits.

                     Status (Implemented): A draft SSI Spotlight was prepared and sent
                     to SSA’s field components for review. It provides specific
Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year        B-11
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     instructions on reporting requirements for wages or self-employment.
                     The final POMS transmittal containing the SSI Spotlight was issued
                     in September 2001 (TN 10 to SI 00601.061).

                     Responsible SSA Component: DCDISP

Recommendation 6: Print wage estimates and detailed reporting instructions on
                the claims receipt form.

                     A claims receipt form is provided at initial application, but information
                     about reporting responsibilities is broad and covers a wide range of
                     reportable events. It does not specifically have information about
                     what earned income is being used to calculate benefits nor does it
                     instruct the individual on what types of evidence are required to
                     verify earned income.

                     Status (Pending The Deputy Commissioner for Systems Priority
                     Plan): The claims receipt form is being revised and a request has
                     been prepared for the Office of Systems to make the appropriate
                     modifications to the Modernized Supplemental Security Income
                     Claims System (MSSICS).

                     Responsible SSA Component: DCDISP

                     Update on Status: The claims receipt form has been revised.
                     ODISP’s Office of Program Benefits staff met with Office of Systems
                     staff to discuss the proposed MSSICS modifications. As of the date
                     of this report, no request for modifications has reached the
                     scheduled portion of the old 5-Year Plan nor have templates been
                     received for the new prioritization approach for FYs 2002 or 2003.

Recommendation 7: Develop public information to address concurrent
                entitlement.

                     An individual can receive SSI (title XVI) and Social Security (title II)
                     benefits at the same time. This is called concurrent entitlement. The
                     two programs have different income rules and reporting
                     responsibilities. Often, claimants are confused between the two.

                     Status (Implemented): Information addressing claimants reporting
                     responsibilities when they are concurrently entitled was included in
                     the Rights and Responsibilities booklet and booklets for titles II and
                     XVI. Per actions cited in the (draft) Agency comments on the GAO
                     draft report, Social Security Administration Disability: Enhanced
                     Procedures and Guidance Could Improve Service and Reduce
                     Overpayments to Concurrent Beneficiaries, SSA will develop a fact
                     sheet for concurrent beneficiaries that explains the complex
                     interaction of the two programs in language that beneficiaries can
Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year          B-12
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     understand. The Agency is also revising the publication, Working
                     While Disabled-How We Can Help, to clarify that beneficiaries who
                     are receiving benefits under one or both programs should contact
                     SSA.


                     Responsible SSA Component: DCCOM

Recommendation 8: Revise operating procedures to clarify what is considered to
                be acceptable evidence.

                     When claimants report unemployment status, CRs must verify this
                     information. Operating procedures list in order of priority the various
                     acceptable forms of evidence CRs can obtain to remove wages from
                     a claimant’s record. However, we found that CRs did not
                     consistently follow the priority list and accepted the least preferred
                     form of evidence.

                     Status (Implemented): SSA’s operating procedures were revised in
                     March 1999 to clarify when signed allegations from recipients stating
                     that they are no longer working are acceptable for terminating
                     wages.

                     Responsible SSA Component: DCDISP

Recommendation 9: Revise operating procedures to prompt development of
                cafeteria plans.

                     A cafeteria plan is a written benefit plan offered by an employer
                     where participants choose “cafeteria style” from a menu of two or
                     more cash or qualified benefits. During this review, CRs indicated
                     they were unaware of the need to develop cafeteria plans or
                     misunderstood the operating procedures.

                     Status (Implemented): In March 1999, SSA operating procedures
                     on “Wages” was revised to include cross-references to the operating
                     procedure for “cafeteria plans.”

                     Responsible SSA Component: DCDISP

Recommendation 10: Revise the MSSICS to assist CRs in developing blind and
                impairment-related work expenses.

                     Work expenses related to an individual’s blindness or other
                     impairment can be deducted from his/her wages when determining
                     eligibility and benefits. We found CRs infrequently encounter these
                     types of cases. They told us it would be helpful to have on-line
                     reminders to prompt for this information.
Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year        B-13
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     Status (Pending The Deputy Commissioner for Systems Priority
                     Plan): To date, the Office of Systems has not received a service
                     request to include this recommendation as part of its Systems' 5-year
                     plan.

                     Responsible SSA Component: DCDISP

                     Update on Status: The issue raised in this recommendation is
                     being addressed through systems enhancements under active
                     development or currently implemented. These include the
                     Modernized Return to Work (MRTW) and the Continuing Disability
                     Review Control File (CDRCF) systems. These systems will
                     incorporate a wide variety of case and management information
                     enhancements relating to all the work incentives provisions, including
                     Impairment-Related Work Expenses.

                     The Continuing Disability Review Control File is being replaced in
                     November of 2002 by the Disability Control File (DCF). This will offer
                     improved functionality in numerous areas relating to the processing
                     and control of post-entitlement actions in disability-based workloads.
                     The DCF will centralize and unify by providing on-line access to
                     information, automated alerts to staff, batch processing of post-
                     entitlement workloads, and the control of necessary actions. This
                     will assist by allowing staff to know when work incentives, such as
                     blind work expenses (BWE), and income related work expenses are
                     involved, by expediting development in these cases, and by
                     documenting data from determinations. In particular, the DCF will
                     carry information about the use of work incentives, including the use
                     of BWE. The DCF will also carry “blind” indicators that can be used
                     to alert staff to consider BWE when a blind beneficiary works. Future
                     enhancements will continue to expand the data reflected in the file,
                     increase automated features, and improve the management
                     information capabilities of this file. The Office of Public Service and
                     Operations Support and Office of Employment Support Programs
                     piloted the Modernized Return to Work (MRTW) screen in the fall
                     2001, and on August 12, 2002, made the MRTW application as a
                     LAN-based software to all SSA FOs nationwide. By summer 2003,
                     we hope to establish the MRTW as a national database. The MRTW
                     is used mainly for title II and title XVI initial disability claims that have
                     work issues and title II continuing disability reviews, based on work.

Recommendation 11: Provide training to field office personnel on cafeteria plans
                and blind and impairment-related work expenses.

                     Little reference is given to cafeteria plans and blind and impairment-
                     related work expenses during basic CR training. It is the general
                     expectation that additional on-the-job training for these areas will
Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year             B-14
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     supplement basic training. However, we did not find this to be the
                     case.

                     Status (Implemented): In April 1999, IVT was conducted on SSI
                     High-Risk, which included information on cafeteria plans and blind
                     and impairment-related work expenses.

                     Responsible SSA Component: DCDISP/DCHR

Recommendation 12: Revise the MSSICs to capture self-employment income for
                the current taxable year.

                     At initial application, CRs are required to ask about any self-
                     employment for the individual or any deemors. The general rule is
                     that it is counted for 12 months regardless of how long the individual
                     is engaged in the operation of the business or when the income is
                     received. We found that CRs frequently misapplied the rule and only
                     inquired about self-employment activity occurring at the time of filing.

                     Status (Implemented): In October 2000, MSSICS began capturing
                     self-employment income for the current taxable year.

                     Responsible SSA Component: DCDISP




Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year         B-15
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
Supplemental Security Income Unearned Income Issue Team September 1999


Of the 8 report recommendations, 3 have been implemented; 2 are in the process of
being implemented; 2 are pending prioritization within The Deputy Commissioner for
System Priority Plan; and 1 did not have SSA concurrence.

Recommendation 1: Include a handout listing the types of unearned income in the
                recordkeeper or print the list on the recordkeeper itself. Field
                offices should be reminded of operating procedure guidance for
                using and distributing the folders and of the reordering
                process.

                     Failure to report changes affecting entitlement and payment amounts
                     has historically been a problem in the SSI program. SSA’s tri-fold
                     recordkeeper is a product that allows claimants to keep necessary
                     records, for example, pay stubs, receipts, utility bills, etc. It allows
                     claimants to store information regarding types of unearned income.


                     Status (Implemented): In April 2000, a listing in English of the
                     types of unearned income was printed on the recordkeeper folder
                     and a listing in Spanish was done as a handout.

                     Responsible SSA Component: DCDISP


Recommendation 2: Retitle the operating procedure section ”Prizes" as
                "Gambling and Lottery Winnings and Other Prizes” so CRs can
                more easily locate instructions about properly counting
                gambling/lottery winnings.

                     Gambling and lottery winnings are emerging as a source of
                     unearned income. There is not a separate section on gambling.
                     Rather, the information is subsumed under the section on "Prizes."

                     Status (Implemented): In October 2000, the chapter in operating
                     procedures on “Prizes” was retitled “Gambling, Prizes and Other
                     Winnings,” and specific policy was included on gambling and lottery
                     winnings.

                     Responsible SSA Component: DCDISP




Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year         B-16
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
Recommendation 3: Modify the MSSICS Income Menu (IMEN) screen by adding
                parathentical information, which includes a reference to
                gambling and lottery winnings, “Other Income or Support Not
                Previously Mentioned.”

                     The on-line IMEN screen used during initial claims taking and
                     determinations has a limited list of sources of income. Gambling and
                     lottery winnings were not included in the list of unearned income.
                     (MSSICS is SSA’s automated system used to input SSI claims-
                     related information.)

                     Status (Pending The Deputy Commissioner for Systems Priority
                     Plan): A request to modify the MSSICS income screen to include a
                     reference to gambling and lottery winnings is being drafted for
                     inclusion in the Systems' 5-year plan.

                     Responsible SSA Component: DCDISP

                     Update on Status: Following discussions with the Office of
                     Systems, this recommendation was combined with recommendation
                     4. This recommendation was previously on the unscheduled portion
                     of the old 5-Year Systems Plan. The Deputy Commissioner for
                     Systems has not received proposals for the FY 2002 or FY 2003 new
                     Information Technology planning process.

Recommendation 4: Modify the MSSICS Income Other (IOTH) screen so that
                gambling and lottery winnings can be listed under “Type
                Received.”

                     Gambling and lottery winnings are also not included on the on-line
                     input screen for “Other Income or Support Not Mentioned.”

                     Status (Pending The Deputy Commissioner for Systems Priority
                     Plan): A request to modify the MSSICS IOTH screen to include a
                     reference to gambling and lottery winnings is being drafted for
                     inclusion in the Systems' 5-year plan.

                     Responsible SSA Component: DCDISP

                     Update on Status: It has been determined that this change could
                     be made without it needing to be submitted for inclusion in the 5-year
                     plan. On June 15, 2001, ODISP’s Office of Program Benefits staff
                     submitted revised language on gambling and lottery winnings to the
                     Office of Systems.

                     This recommendation was previously on the unscheduled portion of
                     the old 5-Year Systems Plan. The Deputy Commissioner for

Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year       B-17
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     Systems has not received proposals for the FY 2002 or FY 2003 new
                     Information Technology planning process.

Recommendation 5: Ensure that recommendations from the SSI Unearned Income
                report and prior Payment Accuracy Task Force reports are
                included in the Agency’s monthly SSI Initiatives Tracking
                Report, subsequent SSI management reports, and other
                information systems related to SSI high-risk efforts.

                     Information regarding the SSI Payment Accuracy Task Force
                     initiatives was not included in any of the Agency’s monthly tracking
                     reports.

                     Status (Implementation in Progress): All actions are done or are
                     being completed at this time.

                     Responsible SSA Component: DCDISP

                     Update on Status: Implemented. Components have been advised
                     to include this.

Recommendation 6: Adapt the SSI unearned income portion of the April 1999 IVT
                for on-line training via SSA’s virtual campus.

                     An IVT was conducted in April 1999 on SSI Unearned Income policy
                     revisions. However, the degree of field office staff participation in the
                     training varied based on their workloads and IVT access.

                     Status (Implemented): In July 2000, the SSI unearned income
                     portion of the April 1999 IVT became available on the Office of
                     Training’s website.

                     Responsible SSA Component: DCHR

Recommendation 7: The Office of Disability and Income Security Programs
                (ODISP), as the SSA lead component for SSI High-Risk and
                Information Exchange activities, should discuss with the
                Department of Health and Human Services’ (HHS) OCSE the
                sufficiency of existing laws to permit on-line access to State
                Child Support Enforcement (CSE) agency records on child
                support payments. If sufficient, then ODISP should request that
                HHS/OCSE issue a guidance letter to the State CSE agencies to
                provide SSA title XVI CRs with on-line single query access to
                such records. ODISP should then request that the Office of
                Operations make access to CSE as one of the target agencies in
                its SSA Access to State Records Online (SASRO) project.
                However, if existing laws are not sufficient, we recommend that
                ODISP should request the Office of Legislation and
Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year         B-18
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     Congressional Affairs to propose a legislative initiative to
                     address SSA or OCSE concerns.

                     CRs believe that on-line access to State data will improve detection
                     of unearned income, particularly child support payments. SSA has a
                     legislative proposal to permit access to OCSE child support data.
                     SSA has a mechanism in place they can use to help access state
                     child support data. The SASRO project could be used to pursue
                     State agreements for child support data.

                     Status (SSA Did Not Concur): SSA commented that it is awaiting
                     the outcome of negotiations regarding costs involved in using
                     OCSE’s child support data, and it does not want to complicate
                     negotiations by discussing direct on-line access through SASRO.

                     SSA is preparing a legislative proposal to authorize access to the
                     OCSE’s records on child support payments.

                     Responsible SSA Component: DCDISP

                     Update on Status: SSA has discussed with HHS the sufficiency of
                     existing laws to permit SSA online access to State Child Support
                     Enforcement agency records on child support payments. While
                     HHS’ OGC formal response is pending, they have indicated to SSA
                     that it is their position that Federal law does not authorize a Title IV-D
                     agency (i.e., a Child Support Agency) to provide SSA with State
                     Case Registry information, such as payment information or other
                     case data.

                     OCSE has concluded that SSA does not have legal authority to
                     access child support payment data and has formally informed the
                     State child support agencies of this fact. SSA is considering
                     proposing legislation to allow access.

Recommendation 8: Include the following addendum to SSA’s current legislative
                proposal to access the Federal Case Registry of Child Support
                Orders: “States should be required to provide data on child
                support collections, receipt, and distribution to the Federal
                Case Registry.”

                     Status (Implementation in Progress): SSA will consider this
                     recommendation as it develops its legislative package.

                     Responsible SSA Component: DCLCA

                     Update on Status: No Change


Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year          B-19
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
   Title II Relationship and Dependency                         September 2000


Of the 9 report recommendations, 4 have been implemented; 3 are in the process of
being implemented; 2 are pending prioritization within The Deputy Commissioner for
System Priority Plan.

Recommendation 1: Add the following wording to Form SSA-2519 to help CRs
                develop relationships for out-of-wedlock children: “State of
                domicile” and “When considering the status of an out-of-
                wedlock child for entitlement, a child cannot be disallowed until
                applicable State intestacy law is considered.”

                     Form SSA-2519 (Child Relationship Statement) is required in all
                     disallowed child cases where the relationship to the primary
                     numberholder is not established for an out-of-wedlock child. The
                     Form documents the potential existence of evidence the primary
                     numberholder acknowledged a parent-child relationship. However,
                     the Form only assists CRs in developing child relationships under
                     section 216(h)(3) of the Social Security Act. It does not provide
                     guidelines for developing and documenting out-of-wedlock children
                     under the rule in Section 216(h)(2)(A) of that Act requiring reference
                     to an individual’s status as a child of the insured under State
                     intestacy law, which must be done before a disallowance can be
                     considered proper,

                     Status: (Implemented )

                     Responsible SSA Component: DCDISP

                     Update on Status: Form SSA-2519 was released to the contractor
                     for printing in June 2002.

Recommendation 2: Place more emphasis on initial CR training and providing
                subsequent refresher training to emphasize consideration of
                State intestacy laws before disallowing a claim for an out-of-
                wedlock child.

                     During our discussions with program service center reconsideration
                     reviewers, we found they believed CRs did not always consider State
                     intestacy laws before denying the claim of an out-of-wedlock child.
                     Their opinion was based on the number of initial decisions made by
                     CRs that they are overturning. The CRs also reported receiving
                     insufficient training about considering State intestacy law before
                     disallowing a claim. Almost 60 percent of the CRs could not recall

Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year        B-20
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     being provided any training on processing out-of-wedlock child
                     claims using State intestacy laws. Additionally, during initial CR
                     training, there is only one statement about State intestacy laws
                     contained in the training materials.

                     Status: (Implemented)

                     Responsible SSA Component: DCHR/DCO

                     Update on Status: The Title II Claims Representative Entry-Level
                     course contains a lesson on Child’s Benefits (CR-20). The lesson
                     includes information on entitlement factors, child relationship types,
                     dependency, and application requirements for child’s benefits. The
                     laws and regulations pertaining to state intestacy laws are
                     referenced in the lesson as well as in an exhibit outlining the
                     requirements and documentation necessary for each child
                     relationship type. The exhibit can be used as a desk guide when
                     developing child’s claims. POMS procedures and instructions have
                     been reorganized and updated to reflect the revised up-to-date rules
                     and regulations in the state intestacy laws. In December 2000, an
                     IVT transmittal training broadcast was conducted on the revised
                     POMS transmittal.


Recommendation 3: Modify Form SSA-783 to include the number of individuals in
                a household and their income.

                     During our site visit discussions, 80 percent of the CRs and two-
                     thirds of the reconsideration reviewers said that one-half support
                     claims were their most difficult to process relative to other types of
                     relationship/dependency claims. The most frequent problems CRs
                     mentioned in processing relationship/dependency claims were
                     development and computation of one-half support. Form SSA-783
                     (Statement Regarding Contributions) is used to determine one-half
                     support. The Form does not record the number of persons living in a
                     household and the amount of their income.

              Status: (Implementation in Progress).

                     Responsible SSA Component: DCDISP

                     Update on Status: Changes have been made to Form SSA-783.
                     The Office of Management and Budget approved the revised Form
                     but requested additional information to support the change. SSA has
                     provided a copy of the PATF report to the Office of Publications and
                     Logistics Management. Office of Publications and Logistics
                     Management will have the revised form printed and distributed.

Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year          B-21
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
Recommendation 4: Develop supplemental tool(s) to help with one-half support
                computation, e.g., an interactive computation screen supported
                by the Interactive Computation Facility, a worksheet for manual
                computation, and/or a desk guide.

                     Recommendations 3 and 4 are linked. See explanation of issue in
                     Recommendation 3.

                     Status: (Pending The Deputy Commissioner for Systems
                     Priority Plan)

                     Responsible SSA Component: DCDISP

                     Update on Status: ODISP’s Office of Program Benefits prepared an
                     Information Technology template to have the MCS project added to
                     the list of systems’ priorities. However, because of higher priority
                     initiatives, this item did not make the ODISP list for 2002.

Recommendation 5: Revise operating procedures to include the September 1996
                program circular on determining one-half support for
                stepchildren.

                     Current operation procedures on stepchild dependency requirements
                     refer technicians to a section for guidance on how to determine one-
                     half support. However, the transmittal for that chapter had not been
                     updated since April 1990, preceding the date of the program circular.

                     Status: (Implementation in Progress)

                     Responsible SSA Component: DCDISP

                     Update on Status: RS 01301 will be updated to include the
                     instructions in the September 1996 program circular and released to
                     the Office of Publications and Logistics Management for printing and
                     distribution by June 2002.

                     Because of a loss of staffing and higher priority projects, the POMS
                     has been delayed. We anticipate having the revised POMS
                     published by the first quarter of 2003. In the interim, the program
                     circular continues to operative.

Recommendation 6: Stress the importance of field office staff using Shared
                Process to document evidence and the Report of Contact
                screen to document special determinations so that
                reconsideration reviewers have needed information to process
                requests for reconsideration of an initial determination.


Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year      B-22
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     Adjudicators are required to document every decision that disallows
                     a child for failure to establish a parent-child relationship. They are
                     also required to electronically store evidentiary documents submitted
                     in a claim by recording identifying data about the documents on the
                     evidence screen from the Shared Process menu.

                     Status: Implemented

                     Responsible SSA Component: DCDISP

                     Update on Status: Recommendations 6 and 7 will be combined.
                     A program circular was issued on August 30, 2001 that stressed the
                     importance of using (1) the Shared Process screen to document
                     evidence and (2) the availability of state legal precedent opinions.


Recommendation 7: Distribute a program circular or other form of communication
                to remind field offices and program service centers that legal
                precedent opinions on State and District of Columbia law are
                available in operating procedures stored on CD-ROM.

                     The State legal precedent opinions in operating procedures stored
                     on CD-ROM provide all adjudicators with one, easily accessible,
                     centrally maintained source for legal precedent opinions and a
                     streamlined process for requesting new opinions. The ability to
                     update the data base each month provides immediate access to the
                     most current advice on the application of State and District of
                     Columbia law. This ensures claimants consistent, equitable
                     treatment because adjudicators can more readily consider and apply
                     the most current version of State law.

                     Status: (Implemented) A program circular was issued on
                     August 30, 2001 that stressed the importance of using (1) the
                     Shared Process screen to document evidence and (2) the availability
                     of state legal precedent opinions.

                     Responsible SSA Component: DCDISP

                     Update on Status: See recommendation 6

Recommendation 8: Reinforce reporting responsibilities either by modifying the
                MCS screen and the application path to output and print the
                “claims type specific” reporting responsibilities on the
                application receipt itself or by generating an alert on the
                Developmental Worksheet as a reminder to print the reporting
                responsibilities. This would eliminate the need to revisit the
                claims path for additional printing.

Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year       B-23
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     SSA relies on claimants to self-report any changes that might affect
                     the amount and continued receipt of benefit payments. Even with
                     the various methods SSA uses to inform claimants of their reporting
                     responsibilities, almost two-thirds of the CRs told us claimants still
                     assert they do not know they are supposed to self-report changes.
                     Nonreporting still occurs despite the fact that CRs told us they advise
                     claimants of their reporting responsibilities.

                     Status: (Pending The Deputy Commissioner for Systems
                     Priority Plan)

                     Responsible SSA Component: DCDISP

                     Update on Status: ODISP’s Office of Program Benefits prepared an
                     Information Technology template to have the MCS project added to
                     the list of systems’ priorities. However, other priorities took
                     precedence for 2002.

Recommendation 9: Conduct a study to determine the feasibility of continuing to
                send Beneficiary Recontact Program mailers to children ages
                15 to 17 and to discern whether there are more efficacious ways
                to detect unreported marriages for this age group.

                     SSA’s Beneficiary Recontact Program was implemented in 1993 to
                     detect unreported marriages, reports of no child in-care situations of
                     widow/widowers, and unreported marriages for young children aged
                     15 to17. Being unmarried is a requirement for entitlement to certain
                     title II benefits, including child’s benefits. Before 1996, there was a
                     question on a representative payee accounting form that asked
                     about a child’s marital status. In 1996, children aged 15 to 17 began
                     receiving mailed recontact forms to report their marital status.
                     Seventy thousand mailers (840,000/year) were distributed per month
                     to this age group in calendar year 1999.

                     Status (Implementation in Process): On January 19, 2001, the
                     OIG issued an early alert notifying SSA that, in Calendar Years 1999
                     and 2000, the Beneficiary Recontact Report, Forms SSA-1587 and
                     SSA-1588, identified a small number of unreported marriages.
                     Based on our review, we recommended SSA not renew its contract
                     to mail the forms to detect unreported marriages for dependent
                     children ages 15-17. SSA is considering the appropriate action to
                     address this recommendation.

                     Responsible SSA Component: DCDISP

                     Update on Status: Following release of the Payment Accuracy
                     Report, the Office of Quality Assurance and Performance
                     Assessment (OQA) agreed to additional study of the cost benefit of
Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year        B-24
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                     the Beneficiary Recontact Program for children age 15 to 17. Based
                     on further study by OQA, SSA stopped sending the SSA-1587 to
                     children under age 17 in June 2002. SSA will only contact children
                     age 17 with payees and those in direct payment beginning June
                     2002. There will be no automated termination for children who fail to
                     return the forms since OQA found that most of these terminations
                     were erroneous.




Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year      B-25
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                                                                         Appendix C

Acronyms
BWE           Blind Work Expenses
CDRCF         Continuing Disability Review Control File
CR            Claims Representative
CSE           Child Support Enforcement
DCCOMM        Deputy Commissioner for Communications
DCDISP        Deputy Commissioner for Disability and Income Security Programs
DCF           Disability Control File
DCFAM         Deputy Commissioner for Finance, Assessment and Management
DCHR          Deputy Commissioner for Human Resources
DCLCA         Deputy Commissioner for Legislation and Congressional Affairs
DCO           Deputy Commissioner for Operations
DCS           Deputy Commissioner for Systems
DOC           Data Operations Center
EMS           Earnings Modernization System
EN            Employment Network
FO            Field Office
HHS           Health and Human Services
ICER          Informational/Certified Earnings Record
IDA           Index of Dollar Accuracy
IMEN          Income Menus
IOTH          Income Other
IVT           Interactive Video Training
LAN           Local Area Network
MCS           Modernized Claims System
MRTW          Modernized Return to Work
MSSICS        Modernized Supplemental Security Income Claims System
NY RO         New York Regional Office
OASI          Old-Age and Survivors Insurance
OCSE          Office of Child Support Enforcement
ODISP         Office of Disability and Income Security Programs
OESP          Office of Employment Support Programs
OGC           Office of the General Counsel
OIG           Office of the Inspector General
OPB           Office of Program Benefits
OPIM          Office of Process and Innovation Management
OQA           Office of Quality Assurance and Performance Assessment
PATF          Payment Accuracy Task Force
PEBES         Personal Earnings and Benefit Estimate Statement
POMS          Program Operations Manual System
SASRO         SSA Access to State Records Online
SSI           Supplemental Security Income
TSC           Teleservice Center

Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                                                                         Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Shirley E. Todd, Director, General Management Audit Division (410) 966-9365

Acknowledgments
In addition to those named above:

   Brian Karpe, Team Leader

   Evan Buckingham, Analyst

   Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-13-01-21046.




Status of Corrective Actions Taken in Response to Recommendations in Fiscal Year
1997-Through 2000 Payment Accuracy Task Force Reports (A-13-01-21046)
                           DISTRIBUTION SCHEDULE

                                                                          No. of
                                                                         Copies

Commissioner of Social Security                                               1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                             1
Assistant Inspector General for Investigations                                1
Assistant Inspector General for Executive Operations                          3
Assistant Inspector General for Audit                                         1
Deputy Assistant Inspector General for Audit                                  1
 Director, Data Analysis and Technology Audit Division                        1
 Director, Financial Audit Division                                           1
 Director, Southern Audit Division                                            1
 Director, Western Audit Division                                             1
 Director, Northern Audit Division                                            1
 Director, General Management Audit Division                                  1
Team Leaders                                                                 25
Income Maintenance Branch, Office of Management and Budget                    1
Chairman, Committee on Ways and Means                                         1
Ranking Minority Member, Committee on Ways and Means                          1
Chief of Staff, Committee on Ways and Means                                   1
Chairman, Subcommittee on Social Security                                     2
Ranking Minority Member, Subcommittee on Social Security                      1
Majority Staff Director, Subcommittee on Social Security                      2
Minority Staff Director, Subcommittee on Social Security                      2
Chairman, Subcommittee on Human Resources                                     1
Ranking Minority Member, Subcommittee on Human Resources                      1
Chairman, Committee on Budget, House of Representatives                       1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        96
                     Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                      Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
